Peace Corps
Office of Inspector General




       Bayon Temple, Siem Reap, Cambodia




Final Program Evaluation Report:
      Peace Corps/Cambodia
            IG-11-04-E

                                           May 2011
                               EXECUTIVE SUMMARY
Over 100 Peace Corps Volunteers have served the people of Cambodia since the program opened
in 2006. Programming has focused on English Teacher and Teacher Training and in 2010
Cambodia’s fourth input of Volunteers included a new sector, Community Health Education. At
the onset of this evaluation, there were 40 education Volunteers serving in Cambodia and 49
trainees in Pre-service Training (PST).

The Peace Corps/Cambodia program, long requested by the government of Cambodia, was
launched by experienced staff with regional expertise. They have successfully established a solid
base of programmatic operations. The host government, both at national and local levels, has
embraced the PC/Cambodia program and is working in partnership with program managers to
more firmly establish and extend Volunteer projects. The Volunteers are well-integrated with
their communities and accomplishing project goals. Successful community integration has been
a keystone to the Volunteers’ sense of satisfaction with service and their personal safety.

Beginning in 2009, a prolonged vacancy in the director of programming and training (DPT)
position impacted key operations including Volunteer programming support and medical
support. The eight month absence of the DPT had a profound impact on the newly established
country program, but with the arrival of a permanent DPT in July 2010, the post has been taking
steps to address these issues and regain the positive momentum established in its first years of
operation. This protracted staff vacancy has not been an isolated incident. A review by the
Office of Global Operations determined that systemic problems caused lengthy vacancies and
other issues with the recruitment and selection process for DPTs and directors of management
and operations (DMOs). Following the review, a decision was made over the summer of 2010 to
centralize the recruitment and selection of all DPTs and DMOs in the Office of Overseas
Recruitment, Selection and Support (ORSS). ORSS began implementation of these hiring
procedures in January 2011.

Many of the areas of PC/Cambodia operations that require attention can be attributed to new
staff still learning their roles and responsibilities. The 2009 PST safety and security training was
largely ineffective, and Volunteers were dissatisfied with several areas of safety and security
support. The 2010 PST safety and security program was improved, and Volunteers report better
safety and security support over time. However, some aspects of the Volunteer safety and
security program remain weak. OIG recommends that the country director (CD) develop a
professional development plan to further improve the safety and security coordinator’s (SSC’s)
quality of safety and security support, and that the content and delivery of PST safety and
security sessions be strengthened.

Trainees and Volunteers have felt isolated and unsupported when they have experienced
discrimination in Cambodia. They are dissatisfied with the quality of pre- and in-service
diversity training and feel there is a lack of awareness and support among staff. OIG
recommends that diversity training occur earlier in the PST training schedule, and that these
sessions promote awareness and understanding among both staff and trainees. The Volunteer
Assignment Descriptions (VADs) issued to incoming Volunteers failed to set appropriate

Final Program Evaluation Report: Peace Corps/Cambodia                                              i
expectations and do not fully describe the challenges of working in the Cambodian school
system or give details about diversity challenges in Cambodia. OIG recommends VAD revisions
to establish more accurate expectations and better describe the reality of living and working in
Cambodia.

We made additional recommendations that address Volunteer site development, Small Project
Assistance (SPA) grants, the Volunteer Advisory Council, staff meetings, and staff development
needs. Our report contains 19 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.




Final Program Evaluation Report: Peace Corps/Cambodia                                         ii
                                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY ......................................................................................................... 1

TABLE OF CONTENTS ........................................................................................................... 1

HOST COUNTRY BACKGROUND ........................................................................................... 1

PEACE CORPS PROGRAM BACKGROUND .............................................................................. 2

EVALUATION RESULTS ........................................................................................................ 2

          PROGRAMMING ................................................................................................................................2

          VOLUNTEER SUPPORT ....................................................................................................................11

          TRAINING ........................................................................................................................................18

          MANAGEMENT CONTROLS .............................................................................................................23


OBJECTIVE, SCOPE AND METHODOLOGY ........................................................................... 26

INTERVIEWS CONDUCTED .................................................................................................. 27

LIST OF RECOMMENDATIONS ............................................................................................. 30

APPENDIX A: MANAGEMENT’S RESPONSE TO                                         THE PRELIMINARY REPORT ........................ 32


APPENDIX B: OIG COMMENTS .......................................................................................... 39

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT ......................... 44
                         HOST COUNTRY BACKGROUND
Most of Cambodia’s 14.5 million people consider themselves to be Khmers, descendents of a
once-powerful empire that ruled most of mainland Southeast Asia between the tenth and
thirteenth centuries. Wars with neighboring countries (present-day Thailand and Vietnam)
precipitated a long period of decline and in 1863 the King of Cambodia placed the country under
French protection; it became part of French Indochina in 1887. Cambodia gained full
independence from France in 1953.

During the Vietnam War, the Cambodian monarch was ousted in a military coup and
subsequently joined forces with the communist Khmer Rouge rebels, a guerilla force operating in
Cambodia’s remote jungle areas. In 1975, the Khmer Rouge overthrew the government and
immediately forced urban dwellers into the countryside and began the systematic destruction of
Cambodia’s cultural, economic, social, and political structures. Under the Khmer Rouge regime
an estimated one to three million Cambodians died from execution, forced hardship, starvation
and disease. Hundreds of thousands of refugees fled the country.

In 1978, the Vietnamese army invaded Cambodia and forced the Khmer Rouge into the
countryside, where they waged civil war for 13 more years. A peace accord was signed in 1991
mandating democratic elections and a ceasefire, and the United Nations sponsored Cambodia’s
first democratic elections in 1993. The last elements of the Khmer Rouge surrendered in 1999.
The most recent national elections held in 2008 were relatively peaceful.

Reconstruction efforts have begun in recent years with the return of some political stability but
Cambodia’s development needs remain vast. The Khmer Rouge destroyed the country’s
infrastructure and wiped out an entire generation of teachers, doctors, lawyers, civil servants, and
business persons. The 2010 United Nations Human Development Report ranks Cambodia 124
out of 169 countries. Corruption hampers reconstruction efforts and Transparency International
ranked Cambodia 154 out of 178 countries in the 2010 Corruption Perceptions Index.




Final Program Evaluation Report: Peace Corps/Cambodia                                              1
                 PEACE CORPS PROGRAM BACKGROUND

The Royal Government of Cambodia first invited the Peace Corps to open a program in
Cambodia in November 1992. Assessment teams in 1994 and 1996 determined that Cambodia
was not suitable for Peace Corps due to political instability and safety concerns. A third
assessment in 2005 recommended that Peace Corps enter Cambodia. The post opened in July
2006 and the first group of 30 education Volunteers arrived in February 2007. The fourth
training input of 54 trainees arrived in July 2010 and included a new health education sector. In
addition to the trainees preparing for service at the time of our country program evaluation, the
post had 40 Volunteers assigned to the following program sector:

       English Teacher and Teacher Training
   English is a required subject for students entering the seventh grade but the education
   system lacks capacity due to a shortage of capable English teachers, poor quality
   textbooks and professional skills, low teacher salaries and high levels of corruption.
   Volunteers are placed in secondary schools to improve the quality of English classes
   and increase the capacity of their co-teachers, both in their English language skills
   and teaching techniques. Additional goals of the program are to develop English
   learning materials and resources and train youth in life skills and community
   development activities.



                               EVALUATION RESULTS
PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:

       The coordination between the Peace Corps and the host country in determining
       development priorities and Peace Corps program areas;
       Whether post is meeting its project objectives;
       Counterpart selection and quality of counterpart relationships with Volunteers;
       Site development policies and practices.

In a review of the post’s relationships with host country partners and the U.S. Embassy in
Cambodia, and Volunteer/counterpart relationships, OIG found no significant areas of concern
that would warrant action by post. The post has gained strong support from host country
partners and programming staff were working to establish Project Advisory Committees (PACs)
to ensure active participation among project stakeholders.




Final Program Evaluation Report: Peace Corps/Cambodia                                               2
Education Volunteers are paired with school teachers as counterparts. All but two of the 24
Volunteers in the OIG sample1 worked with at least one counterpart and most Volunteers worked
with multiple counterparts. Ninety-one percent of the Volunteers responded favorably that their
counterparts supported their work activities (4.0 response average) and community integration
(3.9 response average).

Cambodia experiences widespread dysfunction with school teachers due to low salaries, poor
English skills, lack of motivation, and corruption. Volunteers who were dissatisfied with their
counterparts selected alternate counterparts. The post has provided support to Volunteers when
issues with counterparts arise by preparing them during training to work with more than one
teacher and assigning them to schools with at least three English teachers.

The Peace Corps program in Cambodia has been effectively launched.

The Peace Corps post in Cambodia opened in July 2006, and in the ensuing years of hard work
by staff and Volunteers, post operations and Volunteers’ projects have been effectively
established. We determined that the factors that led to the effective program launch include: (1)
broad host country buy-in and support to the program; (2) programming alignment with
development needs; and (3) Volunteer success and satisfaction with work activities and
community integration. According to region managers and staff at post, the post’s successful
opening can also be attributed to the depth of experience and regional expertise of the post’s
leadership. The CD who opened the post had prior Peace Corps and regional experience, having
served as a Peace Corps Volunteer in neighboring Thailand. He was replaced by one of Peace
Corps’s most experienced CDs who also gained much of that experience in Southeast Asia. A
director of management operations (DMO) with Peace Corps experience in Southeast Asia and a
seasoned DPT also provided additional support and leadership during the post’s start-up phase.

1. Peace Corps has gained broad host country cooperation and support.
   The Peace Corps New Country Entry Guide affirms the importance of developing host
   country relationships. The guide states:

         The country director (CD) and associate Peace Corps director (APCD) of
         programming and training . . . must begin building strong and lasting relationships
         with both the government and with those who will sponsor Volunteers. Success
         in these efforts lays a foundation essential to an effective post.

    According to staff at post involved with the post’s opening, managers made a conscious
    effort to include the host government as a partner and establish essential buy-in from the
    Ministry of Education. Staff reported:

         ―We go through all the proper channels – it’s really important in this country to follow the
         protocols. Peace Corps is extremely well accepted in this country, we’ve really made a name for
         ourselves and in part because protocols were followed.‖

1
  The OIG interviewed a stratified judgmental sample of 24 currently serving Volunteers (60%) based on their
length of service, site location, project focus, gender, age, and ethnicity. Volunteers were asked to rate many items
on a five-point scale (ex. 1 = not familiar, 5 = very familiar). For the purposes of the data analysis, Volunteer ratings
of ―3‖ and above are considered favorable.


Final Program Evaluation Report: Peace Corps/Cambodia                                                                   3
   By contrast, the CD reported that there are many non-governmental organizations (NGOs)
   operating in Cambodia that do not see the value in working closely with the host government,
   and they often find ways to cut them out of the planning and consultative process.

   OIG interviews and observations confirmed that the post has developed strong and
   collaborative relationships with Cambodian partners including the head of state, ministry
   officials, local district officials, host families and community members. The September 2010
   swearing-in ceremony of the program’s fourth group of Volunteers was attended by
   Cambodian government’s deputy prime minister, who delivered an opening address and
   spoke positively of Peace Corps’s contribution.

   Post staff members have also established positive collaborations with local district officials.
   District officials play an active role in Volunteer site identification and participate in Peace
   Corps trainings and conferences.

2. Programming has been aligned with host country development needs.
   According to the Peace Corps New Country Entry Guide:

       The new country assessment report should have identified the projects most appropriate for initial
       efforts during new country entry. The country director (CD) and associate Peace Corps director
       (APCD) of programming and training must confirm with the host country government that these
       are their priorities.

   A report prepared by the new country entry assessment team identified an acute need for
   English Teachers from the seventh grade on. Post staff indicated that while Cambodia is
   crowded with NGOs, there are no NGOs directing programs to high school level English
   language instruction. We found that the post’s programming staff worked closely with the
   Ministry of Education, Youth and Sport to select target upper schools and communities that
   were a good fit for Peace Corps. Staff stated: ―    The Education project has worked hand in
   glove with the Ministry. [They give] input regarding which provinces to place Volunteers,
   which schools to visit . . . the relationship is close [and has] good communication.‖

3. Volunteers have found success with work activities and community integration.
   Volunteers have experienced high levels of satisfaction with their jobs. Ninety-two percent
   of the Volunteers interviewed (22 of 24 Volunteers) are familiar with their project goals (3.7
   response average). Eighty-eight percent of the Volunteers interviewed (21 of 24 Volunteers)
   believe they have had success accomplishing their primary project goals and objectives (3.5
   response average). According to the 2010 Annual Volunteer Survey (AVS), 94 percent of
   the Volunteers in Cambodia felt their work assignments adequately met the objectives of the
   project plan, which was higher than the global average of 86 percent. Volunteer comments
   included:

       ―Teaching English and working with co-teachers are definitely possible. Students are hungry and
       anemic, teachers are poorly paid and might not show up, but that's stuff that can be overcome.‖

       ―
       In teacher training, I have seen a lot of improvement and they are accepting new teaching ideas.‖




Final Program Evaluation Report: Peace Corps/Cambodia                                                       4
       ―I'm doing well with the students that I have…I have a good relationship with teachers. There’s a
       big impact outside of the classroom as well.‖

   Volunteers also informed OIG that they are satisfied with their site placements and host
   families. The post expects Volunteers to live with a host family throughout their service, and
   both staff and Volunteers feel this policy is effective in promoting community integration,
   building good language ability, and increasing safety and security at site. Ninety-two percent
   of the Volunteers interviewed (22 of 24 Volunteers) were satisfied with the sites selected for
   them (4.3 response average). Eighty-three percent of the Volunteers interviewed (19 of 23
   Volunteers) were satisfied with their host-family experience (4.0 response average.). Eleven
   of 23 Volunteers rated their host-family experience ―   Outstanding.‖

   Volunteer comments included:

       ―
       It's my favorite part of my Peace Corps experience. Because of them I am more integrated and
       know more about the culture. I go to weddings with them, and funerals, and house-warming
       parties and siblings’ activities at school.‖


       ―I think that the host family component is really important because so many things here you won't
       understand without that close family tie. Volunteers should be encouraged to stay with the host
       family . . . the Volunteers who live on [their] own are less happy.‖



Post operations were significantly impacted by a prolonged director of programming and
training vacancy.

The PC/Cambodia program more than doubled in size from its first training input in 2007 to its
third in 2009. This growth occurred with no increase in programming staff, which at program
launch included a director of programming and training, a program manager (PM) and a program
assistant (PA). At the end of fiscal year 2007 the program supported 27 Volunteers. Planned
growth increased the program to 57 Volunteers by the end of fiscal year 2008, and to 72
Volunteers by the end of fiscal year 2009.

Senior managers and programming staff believed they were significantly understaffed by
September 2009 when Cambodia’s third group of Volunteers was sworn in. The arrival of the
third and larger group of Volunteers coincided with the departure of the DPT, who timed-out in
November 2009. The DPT position remained vacant until the new DPT arrived in July 2010, a
span of eight months.

Programming staff told OIG evaluators that during the DPT vacancy it became difficult to
balance their work load, which impacted their stress levels and their work/family/personal life
balance. The program manager described his job during this time as ―lifeon the road.‖ He has
since moved to another job to bring more balance to his life. Comments from other staff at post
included:

       ―
       The program staff were insanely overworked.‖




Final Program Evaluation Report: Peace Corps/Cambodia                                                      5
       ―Washington didn’t see the need to hire program staff until it was too late. We were burning out
       the programming staff.‖

       ―
       We were woefully understaffed.‖

The programming staff, who are both new hires and still becoming familiar with their job
responsibilities, also found their work more challenging without the expertise and guidance of an
experienced DPT. Although the former DPT was later re-hired as a part-time consultant during
spring/summer 2009, according to the country director this arrangement allowed them to ―put out
fires‖ rather than manage the program effectively. During the eight month period without a
permanent DPT lapses began to appear in important programming areas, including Volunteer
communications and oversight, host family selection, Volunteer reporting feedback, and
Volunteer file documentation.

Medical unit operations and the workload of the Peace Corps medical officer (PCMO) were also
impacted by the DPT vacancy. As the only medical provider at post the PCMO was already kept
very busy before the DPT departed. Following the DPT’s departure, the PCMO began receiving
non-medical support requests from Volunteers along with the medical care workload she already
carried. According to Volunteers, they turned to the PCMO for additional support for several
reasons: (1) the programming staff were often unavailable and had trouble returning messages
promptly, if at all; (2) the inexperience of the programming staff reduced the quality of
Volunteer support; (3) Volunteers were reassured by the competence and professionalism of the
PCMO; (4) the PCMO was the only American female on staff.

Volunteer comments included:

       ―[The PCMO] is phenomenal. She is the person you can always talk to. When [the DPT] left it
       was early in our service and we were more comfortable talking to American staff. There is a lot of
       gender stuff in Cambodia so I'd rather talk to [the PCMO].‖

       ―There was an immediate impact after [the DPT] left. I would call [the PCMO] when I was
       uncertain of anything. I had language problems and [the PCMO] got me Khmer books from the
       Embassy.‖

       ―She will just call us sometimes, she's amazing. [She] has been so helpful. She understands a lot
       of what Volunteers are going through.‖

The additional Volunteer support needs placed a significant strain on the PCMO. The PCMO
was unable to take time off from work and felt like she was burning out. The PCMO’s ability to
carry out all of her medical responsibilities was also impacted during the PTO vacancy. The
PCMO made an effort to visit each Volunteer during the first year at their site. The PCMO said
there were about five Volunteers that she had been too busy to visit. The PCMO was also too
busy to attend the annual the Office of Medical Services (OMS) continuing medical education
conferences. A medical contractor was hired by the post in June 2010 to share the work load and
allow medical staff to take leave.

The Europe, Mediterranean, and Asia (EMA) region acknowledged responsibility for the long
DPT vacancy. Regional staff members were not proactive in replacing a DPT known to be
timing out. The DPT hiring process was unnecessarily delayed when a regional staff member


Final Program Evaluation Report: Peace Corps/Cambodia                                                       6
applied additional qualifying criteria to a large roster of candidates, which excluded all but two
candidates. Further delay occurred when a selected candidate ultimately took a position with
another agency, which required the region to re-post the DPT position.

The Office of Global Operations has instituted changes in its overseas staff hiring process.

The long duration of the Cambodia DPT vacancy has not been an isolated incident. The Office
of Global Operations (OGO) determined that there were systemic problems and other issues that
impacted the recruitment and selection process for DPTs and DMOs. During the summer of
2010, the OGO reviewed the process with input from various stakeholders including the EMA,
Africa, and Inter-America & the Pacific regions. Agreement was reached to centralize the hiring
process in the office of Overseas Recruitment, Selection and Support (ORSS). This office,
which manages the country director hiring process, has begun implementation of a DPT and
DMO hiring process that should impact the June 2011 Overseas Staff Training (OST).

There are several concrete advantages to centralizing the DPT and DMO hiring process. A
central office would provide a more global perspective on staff vacancies and prioritize key
vacancies for those posts most in need, such as newer posts composed largely of less experienced
staff. Additional benefits of a more centrally managed approach include: maximizing the
marketing and recruitment tools developed by ORSS; establishing consistent customer service
for candidates; avoiding multiple posts selecting the same candidate; and, improving the
management of timing-out data to facilitate proactive hiring activities. In light of the plans
already underway to implement centralized overseas staff hiring procedures, OIG is not issuing a
recommendation to support this finding.

Programming staff did not conduct effective host family selection.

Nine of the 24 Volunteers in the OIG sample were placed with host families where their living
quarters did not meet standards, or where they experienced problems with integration or other
suitability issues. The issues were significant enough that staff approved moving the Volunteers
to new housing. Three Volunteers related that they did not have access to their own room with a
locking door, which is a requirement in the post’s site selection criteria. The criteria also require
that the host family environment not be unstable due to dysfunction within the family or other
social conditions. Three Volunteers related that their host families were unstable, including one
home owned by an alcoholic married man who lived with his mistress and hosted frequent
parties. Other Volunteers were placed with host families that met site selection criteria, but after
hearing complaints from the Volunteers, Peace Corps staff agreed the host families were
unsuitable.

According to staff, insufficient staff resources and the short amount of time spent vetting
prospective families contributed to poor host family selection. Staff indicated that
comprehensive site identification requires three to four visits by staff with each visit lasting three
to four hours to ensure staff have the opportunity to meet everyone in the host family.
Additionally, staff felt that three housing options should be selected at each prospective site in
the event that a host family cancels plans to host a Volunteer. According to staff it is not unusual
for a relative to return home who was not there during site development and cancel plans to host
a Volunteer.


Final Program Evaluation Report: Peace Corps/Cambodia                                                7
                    We recommend:

                        1. That the director of programming and training ensure
                           that programming staff comply with post’s Site
                           Identification Procedural Guidance.


Volunteers were not prepared for the challenges of working in Cambodian schools or the
importance of establishing secondary activities.

Volunteers in Cambodia were satisfied with their work assignments, but were not occupied on a
full-time basis with their primary projects. The schools and classes that Volunteers were
assigned to were frequently closed or canceled. According to the 2009 AVS data, only 35
percent of Volunteers in Cambodia worked more than 20 hours a week on primary assignments
compared to a global average of 52 percent. Volunteer comments included:

           ―Work gets going, and then stops for long periods because of the schools opening and
           closing so often and due to teachers not being present.‖

           ― I teach 20 hours a week but it’s rare that I have a full week for more than one week at a
           time.‖

           ―I do have enough to do when there aren't holidays and school is in session. There are
           usually two chunks of the school year when I'm busy, maybe 4 solid months of school.‖

Such closings and cancellations are often related to low teacher salaries, poor teacher motivation,
frequent national holidays, and corruption. In 2005, the new country assessment team reported:

           Volunteers who must rely on site supervisors and co-workers who are teachers or government
           employees may experience a higher than normal level of frustration, since most people in these
           positions, particularly at lower levels must work second or third jobs to survive due to their
           extremely low wages.

Most Volunteers were participating in secondary activities to supplement their sporadic primary
work schedule, but some Volunteers said they struggled to establish activities outside of their
schools. Programming staff confirmed that some of the K32 Volunteers were ―       blindsided‖ by the
teacher or staff absences and school closings during their initial months at their sites, indicating
inadequate communications from programming staff regarding the challenges and realities of
working in Cambodia’s schools. The Volunteer Assignment Description (VAD), which is issued
to prospective Volunteers in invitation kits, is a key communication tool for establishing work
expectations. Volunteers thought that the VAD did not sufficiently emphasize the importance of
initiating secondary activities. The VAD set the expectation that Volunteers should not
anticipate initiating secondary activities ―
                                           until you have comfortably integrated into your
community and settled into your primary work assignment.‖



2
    PC/Cambodia’s third group of Volunteers.


Final Program Evaluation Report: Peace Corps/Cambodia                                                       8
In discussions, the DPT acknowledged a need for Volunteers to be ready to engage in secondary
projects earlier in service and when schools are closed for long summer or holiday breaks. The
DPT emphasized the importance of establishing secondary projects during the K43 PST, and
sessions focusing on secondary activities were added to the K4 In-service Training (IST) agenda.
The DPT also will begin to monitor secondary project reporting requirements on the Volunteer
Reporting Form (VRF). The DPT planned to visit all K3 Volunteers to develop work plans with
Volunteers who have not established secondary projects. OIG supports post efforts, to date, to
increase Volunteer readiness to engage in secondary activities. Reaching out to the Volunteers to
determine what type of support they require is a good first step to develop a plan of action to
address this issue.

                   We recommend:

                       2. That the director of programming and training revise
                          the English Teacher and Teacher Training Volunteer
                          Assignment Description to more fully describe the
                          challenges of working in the Cambodian school system
                          and to emphasize the importance of secondary
                          activities.

                       3. That the training manager review pre- and in-service
                          training programs to ensure that they adequately
                          address and prepare Volunteers to carry-out secondary
                          activities.


Youth Development Volunteer Assignment Descriptions were not aligned with programming.

Four Volunteers in the OIG sample said that they were recruited and invited to serve as Youth
Development Volunteers but, after entering service, were surprised and frustrated by the lack of
youth development training and programming. Youth development is identified as one of
several objectives within the English Teacher and Teacher Training (ETTT) project plan.
However, we found that since the inception of the project, programming and site development
has been more focused on education than youth development. Only one of the Youth
Development Volunteers in the OIG sample was able to initiate activities with a youth-related
organization at their site.

However, the post continues to request new Volunteers from the Youth Development applicant
pool. A review of Volunteer Recruitment and Selection (VRS) data showed that the post
requested seven Youth Development Volunteers as part of the 2009 K3 training class. These
applicants were invited to serve in Cambodia with the job title of English Teacher and Youth
Development Advisor. The VAD stated, ―    As a Youth Development Volunteer, you will split
your time between teaching English at your high school and supporting a local NGO [non-
governmental organization] or informal youth organization focusing on programs for youth in
your area.‖
3
    PC/Cambodia’s fourth group of Volunteers.


Final Program Evaluation Report: Peace Corps/Cambodia                                              9
The Integrated Planning and Budget System (IPBS) for FY 2011-2013 indicated plans to
broaden the youth development component of the project, which increases the need for
programming to align with expectation setting.

                    We recommend:

                        4. That the director of programming and training revise
                           the English Teacher and Youth Development Advisor
                           Volunteer Assignment Description to establish more
                           accurate expectations.


Small Project Assistance (SPA) grants were under-utilized by Volunteers.

The IPBS for FY 2011-2013 reported $22,900 was available for SPA grants in FY 2011. Of that
total, $14,400 was carried over from FY 2010. Many of the Volunteers in the OIG sample said
they lacked interest in conducting SPA funded projects. Poor staff support and guidance of SPA
projects could have contributed to lack of interest in utilizing the available funding. The OIG
Volunteer sample included eight4 Volunteers who developed SPA projects. Six of those
Volunteers experienced delays and frustrations they attributed to unclear guidance from staff.
Volunteer comments included:

           ―I don't mind my time being eaten up but this was frustrating for [the project partners] and it
           looked like I was incompetent. It’s wasting everyone's time. I don't want to do more SPA work as
           a result.‖

           ―[There was] very little communication about how to write the grant, how to get the proposal to
           Peace Corps in the first place . . . once I turned it in it was a black hole. People would call me
           from time to time and say we need [additional information]. It took 3-4 months to get the funds.‖

The DMO said that SPA oversight was disrupted by the departure of the DPT in November
2009. The coordination of SPA activities shifted to the DMO, who was unfamiliar with the SPA
process and required back and forth communications with the Partnership Development Unit at
headquarters while processing SPA proposals. The current DPT, who has professional grant
management experience, acknowledged that the SPA process had not been effective and related
plans for improvements. The DPT felt that streamlining the SPA process and raising Volunteer
and staff awareness will increase the number of SPA proposals and improve the efficiency and
effectiveness of SPA projects.




4
    Not including multiple Volunteers working on the same SPA project.


Final Program Evaluation Report: Peace Corps/Cambodia                                                           10
               We recommend:

                  5. That the director of programming and training review
                     the Small Project Assistance (SPA) process and re-
                     design SPA training so that Volunteers know how to
                     apply for funding and manage the program.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, ―   Has post provided adequate
support and oversight to Volunteers?‖ To determine this, we assessed numerous factors,
including: staff-Volunteer communications; project and status report feedback; medical support;
safety and security support, including staff visits to Volunteer work sites, the Emergency Action
Plan (EAP), the handling of crime incidents; and, the adequacy of the Volunteer living
allowance.

In our review of Volunteer administrative support, the Emergency Action Plan, and medical
support, OIG found no significant areas of concern that would warrant action by the post.

The Volunteers are supported by a high performing medical officer and staff.

We found that Volunteer medical support was a particularly strong aspect of post operations.
One-hundred percent of the Volunteers we interviewed (24 of 24 Volunteers) rated medical
support favorably (4.9 response average). This confirmed data from the 2010 Annual Volunteer
Survey (AVS), in which the post ranked significantly higher than global averages, and an
assessment of post medical operations performed by the Office of Medical Services. A 2009 site
evaluation by OMS’ chief of quality improvement determined that Cambodia is a high
performing medical post and described the PCMO as an ―   extremely skilled, dedicated, and
experienced PCMO. She maintains an outstanding rapport with Volunteers and staff."
Volunteers also gave the medical office assistant high marks for responsiveness and quality of
care. Based on the overwhelmingly positive comments made by Volunteers during the
interviews conducted, we fully concur with this assessment.

Volunteers were dissatisfied with safety and security support.

SSC support received a lower rating from Volunteers than other support areas at the post (see
Table X).




Final Program Evaluation Report: Peace Corps/Cambodia                                           11
                              Table 1: Level of Support Provided by Staff
          Area of Support                      Percent Favorable (3,4,5)               Average Response Rating
Staff Overall                                            88%                                     3.5
Country Director                                         80%                                     3.3
DPT (former)                                             87%                                     4.0
Programming Staff                                        95%                                     3.9
Safety and Security                                      71%                                     2.9
Medical                                                 100%                                     4.9
Administrative                                           86%                                     3.8
Source: OIG Volunteer Interviews, 2010

OIG interviews confirmed data from the 2010 AVS in which the post ranked lower than global
averages for safety and security support. In interview comments, Volunteers identified several
areas of dissatisfaction, which include inappropriate or insufficient responses to the security
concerns they raised and the SSC’s poor communication skills. Volunteers also related that the
SSC seemed to be uncomfortable in front of groups and her English was often hard to
understand, which impacted her effectiveness during training. Volunteer comments included:

        ― I borrowed a bicycle at the office and it was stolen from the guest house where I stayed. [The
        SSC] was mad about it and very unprofessional. The bike was locked up but she made it seem
        like it was my fault.‖

        ―Things we consider are a problem [the SSC] does not. When a female is harassed she down
        plays it. Maybe it’s a cultural gap there.‖

        ―I had a purse stolen but didn't report it because I'd just get a lecture. I feel a lack of support from
        [the SSC].‖

        ―If you lose a phone you get interrogated so why would someone go to her if they were sexually
        assaulted?‖

The SSC did not have safety and security work experience prior to joining the post staff
in April 2007. In fact, the SSC was initially interviewed for a programming position due
to her background but was offered the SSC position. Since arrival, her training consisted
of six visits from the Bangkok-based Peace Corps Safety and Security Officer (PCSSO)
and a two-week SSC Training Program provided by the office of Safety and Security in
August 2010. In addition to her lack of prior professional experience, the SSC had a
difficult time communicating and building rapport with the K3 group during PST and
many Volunteers developed an unfavorable impression of her professional abilities.

Despite early difficulties with the K3 group, the SSC made an effort to provide effective
support and in interviews Volunteers noted improvements during the course of their
service. Volunteers related positive one-on-one interactions with the SSC and
improvements to her English. Volunteer comments included:

        ―In training there were times she'd come to talk to us and she'd admonish us for stuff we didn't
        know about . . . she seems to be more approachable and collected for the new PST. I think maybe
        the lack of staff was affecting her, and too many duties.‖



Final Program Evaluation Report: Peace Corps/Cambodia                                                              12
       ―
       I think she means well and I've seen improvement there.‖

       ―
       She had issues during training [but] she will help you solve problems if you go to her.‖

Other staff at post noted that the SSC showed significant improvement during the K4
PST. In an interview, the PCSSO expressed confidence with the SSC’s professional
development and is committed to ongoing support and training through two annual visits
to Cambodia. In interviews with OIG, the SSC spoke positively about her professional
development and noted that she has become more confident presenting in front of a
group. To further improve the SSC’s quality of safety and security support the post could
pursue additional professional development in the areas of training development,
presentation skills, English language and communication skills, and cross-cultural
development for a better grounding in American attitudes and cultural norms.


       We recommend:


                    6. That the country director, in consultation with the
                       Peace Corps safety and security Officer, develop a
                       professional development plan for the safety and
                       security coordinator and monitor progress towards
                       those skill development goals.


Programming staff were not effectively communicating with Volunteers.

The importance of effective communications between programming staff and Volunteers is
illustrated in Peace Corps’s Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide. The guide states:

       [Programming staff] must maintain solid and effective communications systems with the
       Volunteers in the field, in order to know the conditions, needs, performance, problems, and desires
       of the Volunteer population they are supposed to be guiding, supporting, and overseeing .

Volunteers stated that programming staff in Cambodia were often unavailable or unresponsive to
their phone calls, emails, and text messages. Volunteer comments included:

       ―[The PM] knows his job, and has the answers for me. But he is so overworked he often did not
       call back right away.‖

       ―
       [The PM] seemed so overwhelmed he was not always available to me.‖

       ―
       The problem was getting hold of [the PM]. He was taking care of too many things.‖

Programming staff acknowledged being overwhelmed by Volunteer support and communication
needs following the arrival at site of Cambodia’s third group of Volunteers in September 2009.
This input more than doubled the size of the program in a span of two years. Program staff


Final Program Evaluation Report: Peace Corps/Cambodia                                                        13
support to Volunteers was further impacted by the November 2009 departure of the DPT and a
span of 10 months when this position was unfilled. These factors contributed to a breakdown in
regular, supportive communications with Volunteers in the field.

The staffing shortage in the programming unit has been addressed. The DPT position was filled
in July 2010 and the staff size has increased to three Program Managers and two Program
Assistants. The DPT plans to improve all levels of Volunteer communications including phone
calls, emails, texts, postal mail, and reporting feedback. The DPT expects that the new staffing
level will be sufficient to significantly improve the communications systems. Programming staff
were very supportive of more regular and proactive communications with Volunteers.

               We recommend:

                    7. That the director of programming and training
                       establish guidelines to ensure that programming staff
                       communicate regularly with Volunteers.


Volunteer performance reporting feedback has been inconsistent.

Volunteers are required to submit a quarterly report using the Volunteer Reporting Form (VRF).
According to the PC/Cambodia Volunteer Handbook, programming staff will read reports
submitted by Volunteers and send comments or suggestions back to the Volunteers. However,
only 35 percent of the Volunteers interviewed by OIG indicated that they received reporting
feedback ― always‖ or ―most of the time.‖ Staff acknowledged that they did not always read the
reports and provide feedback, which may be a cause for lackluster reporting. In interview
comments, Volunteers said that they do not always complete the VRF or take the reporting
requirement seriously.

Volunteer performance reports are necessary to meet agency reporting requirements and, if used
effectively, they can also play an important role in ensuring good staff communication, support,
and timely responsiveness to problems experienced by Volunteers. According to Peace Corps
Programming and Training Guidance: Management and Implementation:

       Volunteers are motivated when their APCD/PM has high expectations of them and follows-up on
       issues they face. Some examples of how are . . . Read and provide timely feedback to Volunteer
       Report Forms (VRFs).

Since arriving in July 2010, the DPT has made an effort to provide reporting feedback to each
Volunteer, and several Volunteers informed OIG that they received and appreciated this
feedback from the DPT. To increase the quality of Volunteer reporting the DPT should ensure
that Volunteer performance reporting feedback is timely and consistent.




Final Program Evaluation Report: Peace Corps/Cambodia                                                   14
                We recommend:

                    8. That the director of programming and training ensure
                       that Volunteers receive timely feedback to Volunteer
                       Reporting Forms.


The Volunteer Advisory Council was not functioning as an active advisory group.

Peace Corps’s Characteristics and Strategies of a High Performing Post: Post Management
Resource Guide identifies the Volunteer Advisory Council (VAC) as one of the best mechanisms
to gather, analyze, and funnel Volunteer concerns and suggestions to staff. The PC/Cambodia
Volunteer Handbook identified the VAC as ―   an important tool for communication between
Volunteers and staff.‖ In practice, the VAC in Cambodia has not functioned as an effective
communication tool. The VAC met only once since the K3 Volunteers entered service in
September 2009. Eighty-three percent of the Volunteers we interviewed rated the effectiveness
of the VAC below average (1.8 response average) and most Volunteers were unable to identify
VAC activities or accomplishments. Volunteers would like to see more from the VAC.
Volunteer comments included:

       ―I think it should be used since some Volunteers might not be comfortable going to staff and
       would rather go to a VAC [representative] who would go to staff.‖

       ―
       It should be a way to communicate safety and security concerns to the staff.‖

       ―I think it would be good for [VAC representatives] to speak on behalf of their region . . . the
       VAC could be a go-between that can address issues we are all having.‖

Many of the staff we interviewed expressed support for a more fully functioning VAC. The CD
related a few concerns based on experiences at other posts: VAC activities take Volunteers away
from their work and VACs have the potential to take on a negative character. However, these
same concerns are identified in Peace Corps’s Characteristics and Strategies of a High
Performing Post: Post Management Resource Guide, and the guide offers suggestions to
alleviate these concerns. The VAC structure is in place and VAC representatives have been
elected. To re-energize and focus the activities of the VAC senior post staff will need to actively
support and nurture its re-organization.

                We recommend:

                    9. That the country director and director of programming
                       and training work with Volunteer Advisory Council
                       (VAC) representatives to improve the effectiveness of
                       the VAC as a tool for communication between
                       Volunteers and staff.




Final Program Evaluation Report: Peace Corps/Cambodia                                                     15
Site Locator Forms were missing key information.

According to the post’s Emergency Action Plan (EAP), ―   it is essential that Volunteers ensure
that their Site Locator Form (SLF) is accurate and up-to-date at all times.‖ The Peace Corps’s
Characteristics and Strategies of a High Performing Post: Post Management Resource Guide
states:

        Components of the (emergency) action plans should include:
        Accessible updated emergency information forms (or emergency site locator forms) for each
        Volunteer and site.

OIG evaluators requested site locator forms for the 24 sampled Volunteers in order to test their
accuracy when they traveled to Volunteers’ sites. Two SLFs did not exist or had been misfiled.
Of the 14 SLFs that could be verified for accuracy ,5 only eight were sufficiently accurate to
locate the Volunteers. Maps typically were missing compass bearings, accurate distance
indications, intersections, and landmarks. The lack of such details renders the maps useless
when staff or others coming to assist them in an emergency situation are unfamiliar with the
Volunteers’ host communities. An additional analysis of 206 SLFs from the Volunteer sample
revealed multiple occurrences of missing data.

                           Table 2: Missing Data from Site Locator Forms
                     Missing Item                            Number of SLFs            Percentage of
                                                             with Missing Item          SLFs with
                                                                                       Missing Item
Landline Contact Number                                               10                   50%
Contact information for nearest medical facility                       9                   45%
Contact information for consolidation point                            9                   45%
Contact information for local taxi/neighbor with car                   6                   30%
Contact information for nearest medical facility                       5                   25%


The SSC confirmed that currently there is no process in place to verify the accuracy of the SLFs,
their existence in the appropriate file, or to ensure completion of missing information, and there
is no mention of SLFs in the post’s Site Visit Procedural Guide. There are a number of
strategies that could address this problem: programming staff could be tasked with verifying the
SLF data during their first visit to Volunteer sites; staff could give Volunteers explicit
instructions regarding map construction; and, general service clerks/drivers could verify the
accuracy of the maps when they are conducting business in the area.




5
  Evaluators were unable to verify 8 SLFs because seven Volunteers were interviewed at locations away from their
sites, and a married couple shared the same SLF, which was counted only once for this exercise.
6
  Evaluators were unable to verify data for four SLFs because two SLFs were missing and the two married couples
in the sample shared one SLF.


Final Program Evaluation Report: Peace Corps/Cambodia                                                          16
                We recommend:

                     10. That the safety and security coordinator develop
                         guidance for staff and Volunteers to ensure Site Locator
                         Forms are complete, accurate, filed correctly, and that
                         maps are verified for accuracy after Volunteers submit
                         them.


Some of the Volunteer housing criteria is impractical and requires revision.

OIG evaluators visited Volunteers in 16 sites and checked the living conditions of 11 Volunteers
using post-defined site selection criteria. Post -specific housing criteria were not met in two
areas: seven houses (64 percent) did not have screens in bedroom windows and, in four houses
(36 percent), the food preparation areas were not protected from household animals. These two
criteria may be impractical or impossible to fully comply with due to local housing conditions
and host family lifestyles. Due to the tropical climate, Cambodian houses are built in an open-air
style that is difficult and expensive to enclose with screens. Kitchens also are open-air and easily
accessed by various household animals. Neither criteria is likely to be met while Volunteers live
and eat with their host families in typical Cambodian houses.

Staff acknowledged that it is impractical for many Volunteers to install screens in bedroom
windows and the post distributes mosquito nets that Volunteers install over their beds as a more
practical strategy for avoiding mosquito bites while they sleep. Post staff should revise the site
selection criteria to reflect this strategy. Post staff should also consider revising the criterion that
food preparation areas be protected from household animals. The need to review and update
housing criteria has also been raised in other agency reviews of post operations. In 2009, the
PCSSO issued the following recommendation, which remains open:

        Update standards for acceptable T/V housing options, document the site selection procedures, and
        train staff on the process and how to use the criteria when conducting site assessments and
        housing checks. Post does an exceptional job getting various staff (PM, GSCDs, PA, AA, ITS,
        SSC) involved in site selection, so ensuring they all know the procedures and criteria will make
        for a more efficient process.

                We recommend:

                     11. That the country director: (1) address the 2009 Peace
                         Corps safety and security officer recommendation to
                         update the Volunteer site and housing criteria; (2) train
                         staff to use the criteria; and (3) systematically inspect
                         housing to ensure it meets the criteria.




Final Program Evaluation Report: Peace Corps/Cambodia                                                      17
TRAINING

Another objective of the post evaluation is to answer the question, ―
                                                                    Does training prepare
Volunteers for Peace Corps service?‖ To answer this question we considered such factors as:

           Training adequacy;
           Planning and development of the training life cycle;
           Staffing and related budget.


Ninety-six percent of the Volunteers in our sample were satisfied with their Pre-Service Training
(PST) host family experience (4.2 response average). Ninety-six percent of the Volunteers in our
sample were also satisfied with PST language training (4.1 response average). This confirms
2009 AVS data which showed Volunteers in Cambodia are more satisfied with language learning
support and their local language communication skills than global averages. All 497 of the K4
trainees who entered service on September 23, 2010 passed the language tests required to
complete PST.

Training staff evaluate and track trainees’ progress in core and sector competencies and learning
objectives. The training manager believes he has the financial and staff resources needed to
deliver effective trainings.

Pre-service Training was strengthened by current and former Volunteers.

Prior to the K4 PST, which was conducted from July 22 to September 23, 2010, the post
approved service extensions for two K2 Volunteers to provide support roles throughout training.
These two Volunteers helped to significantly improve the safety and security training, which is
described in more detail later in this report. The K4 PST also included more currently serving
Volunteers than the previous training program.

The OIG interview sample included several K3 Volunteers who served in training support roles
in the K4 PST, and they all agreed that PST had been strengthened. Volunteer comments
included:

           ―The K4 training had improvements that we had suggested. Getting the K2s to help run the
           training was great, and greater Volunteer participation was very helpful. We had recommended
           that.‖

           ―[The K4] training is far and above better than the K3 training. It’s far more cognizant of
           American culture. It felt different and I think because the K2 [Volunteers] were there and working
           in partnership. We really talked about developing the sessions together as a team.‖

           ―[The K4] training is running more smoothly than ours did. They have a lot more staff now and
           what's key is they used two Volunteers to be the facilitators in the training.‖




7
    Not including five trainees who resigned during PST.


Final Program Evaluation Report: Peace Corps/Cambodia                                                           18
An OIG evaluator visited the K4 training site and met with a group of trainees shortly before
their swearing-in ceremony. The K4 trainees felt adequately prepared for service and were
satisfied with their training.

Post staff also provided positive feedback regarding the participation of Volunteers in PST and
the Training Manager told the OIG that he plans to continue to use extension Volunteers to
support future trainings.

The 2009 PST safety and security training was ineffective, but was improved for the 2010 PST
program.

Peace Corps’s policy on safety and security training is stated in Peace Corps Manual Section
270, ― To enhance safety overseas, all V/Ts should have a clear understanding of safety and
security issues at their posts, should be provided relevant safety training ....‖

The K3 PST safety and security training delivered in July-August 2009 received the lowest
effectiveness rating from the Volunteers in our sample (see Table X).

                       Table 4: How Effective Was PST Training?8
         Training Area            Percent Favorable (3,4,5)  Average Response Rating
Language                                     96%                       4.1
Culture                                      71%                       3.1
Safety & Security                            65%                       2.9
Medical                                     100%                       4.8
Technical                                    83%                       3.2

Volunteers felt that the safety and security training sessions were poorly presented, redundant,
and lacked relevance to their work sites and living situations in rural Cambodia. Volunteer
comments included:

           ―When they were doing travel safety the SSC just told us to always ride in a safe taxi – though my
           site only has one – and she said to look at the tires and seat belts. These people live in the big city
           and have lots of transportation. There’s a rift between the world they lived in and the world we
           were going to.‖

           ―Training was not done well, the scenarios were . . . common sense stuff like should we get in a
           car that is not working . . . we weren't given much useful information.‖

           ―There were points that were belabored that were common sense – watch your things, lock your
           door – basic things we didn't need repeated. I think it was too repetitive.‖

Volunteers related that certain safety and security issues that concerned them were not
adequately addressed, such as public transportation risks, strategies to deal with inappropriate
attention, or how to seek support from community members for problems they encounter. The
K3 Final PST Report included feedback from trainees that safety and security sessions were


8
    Results do not include the K4 PST


Final Program Evaluation Report: Peace Corps/Cambodia                                                                19
repetitive and hard to understand. The report concluded that the safety and security training was
not effective. The report stated:

       ―During the Bridge-to-Site day at the conclusion of the PST several if not most Trainees could not
       answer even the most basic questions regarding safety and security. This was a telling sign that the
       material was not taken seriously or retained at all.‖

According to the SSC, she did not feel prepared to conduct the K3 Volunteer safety and security
training by herself. The SSC had expected support from a deputy PST director but the person
hired for the job was let go without being replaced. The training group was also larger than the
one at the previous PST, and the SSC was not comfortable conducting training sessions with the
larger group. Without support, the SSC designed and planned the K3 safety and security
sessions independently, which she had not done before, and delivered the sessions by herself. As
a result, the design, planning, and delivery of the sessions were not effective and the SSC was
unable to develop rapport or build trust with the K3 trainees. This in turn impacted the SSC’s
ability to provide Volunteer support following training.

The need for safety and security training improvements was identified by the training staff in
their assessment report. According to the K3 Final PST Report:

       For future PSTs it is recommended to have a RPCV training staff member directly assist the SSC
       on safety and security training design and implementation. The SSC took all of the responsibility
       for designing, planning and presenting information. This was extremely stressful and could be
       eliminated in future PSTs with more support and component integration.

Post staff followed through on the recommendation and utilized two Volunteers from
Cambodia’s second group of Volunteers (K2) to support training. The SSC said that
collaborating with the Volunteers helped her adjust her delivery techniques to a more effective
American style. The SSC believed that she has become more confident delivering presentations
and credits a two-week training course she attended in August 2010 presented by the Office of
Safety and Security.

We note that additional Volunteer safety and security training support has been provided
by the Bangkok-based PCSSO. The PCSSO traveled twice to Cambodia, in August 2007
and February 2008, prior to the K2 PST and again, June 2009, prior to the K3 PST to
support the SSC’s training development. The PCSSO traveled again to Cambodia in
September 2009 to follow-up on the K3 PST and visited once in July 2010 prior to the
arrival of Cambodia’s fourth group of Volunteers K4. In a discussion with OIG, the
PCSSO was confident that the K4 safety and security PST sessions were significantly
improved. Nonetheless, the SSC still feels she requires support to deliver effective
training sessions in PST. The K3 Final PST Report recommended that the SSC seek
team support with PST.

According to Peace Corps’s Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide, the CD should play a role in ensuring staff collaboration in
training activities. The guide states:




Final Program Evaluation Report: Peace Corps/Cambodia                                                         20
Some of the critical roles for the CD to fill [include] promoting team-building efforts among country
program and training staff (including APCD/PMs, PCMO, SSC, etc.) and monitoring the success of the
team approach as training continues—and where there is a need, actively working alongside the training
director or manager to construct and solidify collaboration among staff members.

                 We recommend:

                      12. That the training manager continue and expand the
                          practice of including Volunteers who can share their
                          experience-based perspectives during pre-service
                          training programs.


                      13. That the safety and security coordinator collaborates
                          with training and programming staff to plan and
                          conduct safety and security training sessions.

                      14. That the safety and security coordinator receive
                          additional training in the areas of training development
                          and training delivery.


Volunteers are dissatisfied with diversity training.

Many Cambodians are poorly informed about American cultural diversity and believe that all
Americans are of European origin. According to Volunteers, a bias against darker skin color is
common in Cambodia and impacts Americans who are not light skinned. According to the
PC/Cambodia Welcome Book:

        Some Volunteers may experience blatant bigotry, but subtle discrimination is more common . . . In
        general, Cambodians view lighter skin as more beautiful, a perception based more on an aesthetic
        bias than any racial prejudice and one that existed long before encounters between Cambodia and
        the West.

Asian Americans also experience biases. Asian Americans can be mistaken for nationals from
other countries and they can also be mistaken for Cambodians and held to language and cultural
expectations they are unable to meet. If they are perceived as Thai or Vietnamese they may
experience prejudices due to a long and ongoing history of regional conflict.

A diversity session was held during PST, but Volunteers did not feel it was sufficient to
prepare them for the challenges they encounter in Cambodia. Volunteers also believed
that staff lacked awareness of diversity issues, which is described in more detail later in
this report. Volunteers indicated that more training is needed regarding diversity among
Volunteers. Volunteer comments included:

        ―There has been no purposeful training on diversity during PST . . . we as Americans have a lack
        of ability to talk about these issues.‖

        ―
        They even train the men how to support the women Volunteers but don't do that for ethnicities.‖


Final Program Evaluation Report: Peace Corps/Cambodia                                                       21
Due to the lack of training and preparation for such encounters, Volunteers felt
unsupported and isolated when they experienced discrimination. Volunteers were upset
and offended by the lack of awareness and support among staff regarding these problems.
A group of K4 trainees recalled that their PST diversity training session got ―pretty
heated‖ because several trainees were angry that other trainees and training staff had not
realized they were being treated differently in the Khmer communities. As a result, the
trainees felt the diversity session should occur earlier in training and more
comprehensively treat issues of diversity and discrimination in Cambodia.

Peace Corps’s Characteristics and Strategies of a High Performing Post: Post Management
Resource Guide identifies some specific steps that posts can take to promote and support
diversity. These include:

       Conducting [training] activities directed at helping Volunteers and staff to identify the different
       groups and backgrounds that are a part of their program; to hear and understand the issues people
       of different backgrounds and perspectives may face; to identify and practice ways in which diverse
       Volunteers (and staff) can establish communications and networks with each other and support
       each other.

A diversity training guide from the Office of Overseas Programming and Training Support
identifies the following training goals:

       Develop an awareness and appreciation of the diversity within the training group and
       how interaction within the group may be positively or negatively impacted.
       Develop strategies for Volunteer and trainee mutual support and how to be allies for each
       other.
       Identify how interaction with the community and project effectiveness might be
       affected by Volunteer diversity and develop appropriate coping strategies.
       Identify the appropriate process to raise allegations of discrimination or sexual
       harassment.

Trainees and Volunteers would feel less isolated and more supported if diversity training
occurred earlier in PST and promoted awareness and understanding among both staff and
trainees. Post staff could also prepare Volunteers for diversity training by establishing
appropriate expectations regarding diversity challenges in the VADs.

                We recommend:

                    15. That the training manager enhance diversity training
                        and deliver training shortly after trainees arrive in
                        Cambodia.

                    16. That the director of programming and training update
                        Volunteer Assignment Descriptions to establish
                        expectations regarding diversity challenges.




Final Program Evaluation Report: Peace Corps/Cambodia                                                        22
MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and agency support are effectively aligned with the post's mission and agency
priorities. To address these questions, we assess a number of factors, including staffing; staff
development; office work environment; collection and reporting performance data; and the
post’s strategic planning and budgeting.

In reviewing the post’s relationship with headquarters and the U.S. Embassy, the office work
environment, and post’s strategic planning and budgeting process, OIG found no significant
areas of concern that would warrant action by the post.

Staff at post required additional Emergency Action Plan (EAP) training.

Staff EAP training is required under Peace Corps Manual Section 270 and its importance is
clearly stated in the post’s EAP (2009). The plan states:

       The effectiveness of the Emergency Action Plan depends upon the full support and cooperation of
       all Staff, Volunteers and Trainees. It is essential that members of Peace Corps Cambodia be
       knowledgeable of the Emergency Action Plan and their individual roles and responsibilities.

The SSC advised OIG that post staff members were not sufficiently trained regarding their EAP
responsibilities. The PCSSO had also identified and reported this weakness on multiple
occasions. Following an August 2007 visit to Cambodia, the PCSSO issued a recommendation
―to conduct staff development sessions regarding roles and responsibilities as defined in the
EAP.‖ Following another visit in June 2009, the PCSSO issued a recommendation ―      to design
trainings for office staff to enhance office emergency preparedness.‖ The PCSSO issued a
―required recommendation‖ in September 2009 to conduct staff EAP training. And in December
2009, the PCSSO recommended that staff receive EAP training by participating in EAP tests and
functional drills.

According to the SSC, the staff EAP training had not been implemented due to scheduling
difficulties and noted that leadership support would be needed to implement staff training. Staff
confirmed that the SSC has struggled to be assertive with other staff at post or request their
support, particularly with staff that represent a higher level of authority. According to Peace
Corps Manual section 270, the SSC ―     must collaborate closely with other staff to ensure that all
required components of the Volunteer safety and security support system are operational and are
being properly executed.‖ Increased involvement from post leadership may be required to
implement staff EAP training and reduce the risk that post will respond ineffectively to crises.

               We recommend:

                    17. That the country director address Peace Corps safety
                        and security officer recommendations by implementing
                        staff Emergency Action Planning training.




Final Program Evaluation Report: Peace Corps/Cambodia                                                    23
Post staff expressed interest in more frequent staff meetings.

The benefits of regular staff meetings are illustrated in Peace Corps’s Characteristics and
Strategies of a High Performing Post: Post Management Resource Guide. The guide states:

       One of the quickest ways to undermine communication and trust is to meet only when there is a
       problem . . . For communication to take place and trust and cooperation to be established, people
       must also meet under ordinary circumstances, when they are not under pressure to solve a problem
       right away. One approach to this is to have regular meetings, both one-on-one and as a group . . .
       The use of such meetings is cited repeatedly by CDs as an effective technique for promoting good
       communication and team spirit among the staff.

The previous CD held two or more staff meetings each month. The current CD has held several
meetings each year but the majority of staff interviewed by OIG would prefer to see an increase
in the number of staff meetings.

Staff identified several benefits to more regular meetings, which included: capacity building,
training, and orientation for new staff; team building; collaboration and alignment between
programming, training, and safety and security; staying informed about current operations and
activities; and sharing learning and development experiences.

                We recommend:

                     18. That the country director establish regular staff
                         meetings.


The post had significant staff development needs.

Staff development at the post is an essential management function due to the large number of
staff both new to Peace Corps and to their roles. Of the 13 staff we interviewed, only three had
previous Peace Corps work experience before joining the post, and four staff-members had been
on the job for less than one year. The post has added two additional staff-members to the
programming team.

Both staff and Volunteers stated that staff development was needed in important areas including
active listening/Volunteer support, conflict resolution, presentation skills, and diversity training.

Staff comments included:

       ―I feel that staff could use some role-playing and practice working with Volunteers that are upset
       or frustrated, some conflict resolution stuff. . . Khmer staff are not comfortable in front of groups.‖

       ―The staff struggle sometimes with their role when a Volunteer calls for help with an issue; should
       they advocate for the Volunteers at their sites or just interpret?‖

Volunteers of diverse backgrounds experienced staff members questioning their nationality
because they are not of European heritage. Volunteer comments included:


Final Program Evaluation Report: Peace Corps/Cambodia                                                            24
       ―
       There are staff who asked me if I'm American . . . I didn't come straight from Africa.‖

       ―I don’t know how much diversity training staff receive. I've had diversity issues . . . Most
       Cambodians think all Americans are white.‖

Many staff members had a strong interest in visiting Peace Corps staff at other posts to share
ideas and learn their best practices. In the most recent IPBS submission the post identified
―Personnel Management and Staff Development‖ as one of the top four post management
functions that are most in need of attention. The staff development activities listed in the IPBS
included: diversity/American culture, active listening/Volunteer support, and developing training
opportunities for staff, especially for them to experience Peace Corps processes at other posts.
The IPBS also identified a goal to build staff capacity and skills by implementing an annual all-
staff retreat, which did not occur in 2009 due to budget cuts. By meeting staff training needs the
staff will position itself to effectively expand the size and scope of its Volunteer program.

                We recommend:

                    19. That the country director implement the staff
                        development activities outlined in the FY 2011-2013
                        Integrated Planning and Budget System.




Final Program Evaluation Report: Peace Corps/Cambodia                                                  25
                 OBJECTIVE, SCOPE AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud, waste,
abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. In February 1989, the Peace Corps OIG was established under the Inspector
General Act of 1978 and is an independent entity within the Peace Corps. The Inspector General
(IG) is under the general supervision of the Peace Corps Director and reports both to the Director
and Congress.

The Evaluation Unit within the Peace Corps OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas posts and
domestic offices. OIG evaluators identify best practices and recommend program improvements
to comply with Peace Corps policies.

OIG Evaluation Unit announced its intent to conduct an evaluation of PC/Cambodia on July 21,
2010. For post evaluations, we use the following researchable questions to guide our work:

   To what extent has post developed and implemented programs to increase host country
   communities’ capacity?
   Does training prepare Volunteers for Peace Corps service?
   Has the post provided adequate support and oversight to Volunteers?
   Are post resources and agency support effectively aligned with the post’s mission and agency
   priorities?

The evaluation team conducted the preliminary research portion of the evaluation July 21-
September 3, 2010. This research included review of agency documents provided by
headquarters and post staff; interviews with management staff representing the EMA region,
Overseas Programming and Training Support, Office of Safety and Security; and inquiries to
OMS, VRS, and the Office of Private Sector Initiatives.

In-country fieldwork occurred from September 7 - 28, 2010 and included interviews with post
senior staff in charge of programming, training, and support; the U.S. Ambassador; the embassy
regional security officer; and host country government ministry officials. In addition, we
interviewed a stratified judgmental sample of 24 Volunteers (60 percent of Volunteers serving at
the time of our visit) based on their length of service, site location, project focus, gender, age,
ethnicity, and marital status.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE) (formerly the
President’s Council on Integrity and Efficiency). The evidence, findings, and recommendations
provided in this report have been reviewed by agency stakeholders affected by this review.




Final Program Evaluation Report: Peace Corps/Cambodia                                            26
                                INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 24 Volunteers, 14 post staff
members, and 18 representatives from Peace Corps headquarters in Washington D.C., the U.S.
Embassy in Cambodia, and key ministry officials. Volunteer interviews were conducted using a
standardized interview questionnaire, and Volunteers were asked to rate many items on a five-
point scale (1 = not effective, 3 = average effective, 5 = very effective). The analysis of these
ratings provided a quantitative supplement to Volunteer comments, which were also analyzed.
For the purposes of the data analysis, Volunteer ratings of ― 3‖ and above are considered
favorable. In addition, 16 out of 24 Volunteer interviews occurred at the Volunteers’ sites, and
we inspected 11 Volunteer homes using post-defined site selection criteria. The period of review
for a post evaluation is one full Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire Volunteer
population in Cambodia; the Volunteer sample was selected to reflect these demographics.

                                Table 5: Volunteer Demographic Data
                                                                     Percentage of
                                  Project
                                                                      Volunteers
              English Teaching and Teacher Training9                     100%
                                                                     Percentage of
                                 Gender
                                                                      Volunteers
              Female                                                      60%
              Male                                                        40%
                                                                     Percentage of
                                    Age
                                                                      Volunteers
              25 or younger                                               65%
              26-29                                                       28%
              30-54                                                        8%
              55 and over                                                   0
                 Source: August 2010 PC/Cambodia Volunteer roster.
                 Note: Percentages may not total 100% due to rounding.

At the time of our field visit, the post had 26 staff positions. The post also employed 12
temporary language and cross-cultural facilitators to assist with PST. We interviewed 14 staff
members, including the former DPT.




9
 Ten Volunteers were identified as ETTT/Health Volunteers. These cross-sector Volunteers were piloting the
Community Health Education program that was launched in 2010.


Final Program Evaluation Report: Peace Corps/Cambodia                                                        27
              Table 6: Interviews Conducted with PC/Cambodia Staff Members
                               Position                            Status       Interviewed
      Country Director                                           USDH                X
      Executive Secretary                                        PSC
      Safety and Security Coordinator                            PSC                 X
       Director of Programming and Training                      USDH                X
      Former Director of Programming and Training (July 2006 –   USDH                X
      Nov 2009)
      Program Manager (2)                                        PSC                 X
      Training Manager                                           PSC                 X
      Language and Cross-Cultural Coordinator                    PSC                 X
      Program Assistant                                          PSC                 X
      Director of Management and Operations                      USDH                X
      Budget & Financial Manager                                 PSC                 X
      Cashier                                                    FSN
      General Services Manager                                   PSC
      Information Technology Specialist                          PSC                 X
      Administrative Assistant                                   PSC
      General Services Clerk (5)                                 PSC
      Cleaner (3)
      Peace Corps Medical Officer                                PSC (US)            X
      Peace Corps Medical Contractor                             PSC                 X
      Medical Assistant                                          PSC
   Data as of September 2010.

Additional interviews with 18 people were conducted during the preliminary research phase of the
evaluation, in-country fieldwork and follow-up work upon return to Peace Corps headquarters in
Washington, D.C.




Final Program Evaluation Report: Peace Corps/Cambodia                                              28
 Table 7: Interviews Conducted with PC/Headquarters Staff, Embassy Officials and Key
                                  Ministry Officials
                       Position                             Organization
      Regional Director                       PC/Headquarters/EMA Region
      Chief of Operations                     PC/Headquarters/EMA Region
      Chief Director of Management and        PC/Headquarters/EMA Region
      Operations
      Acting Chief of Program & Training      PC/Headquarters/EMA Region
      Country Desk Officer                    PC/Headquarters/EMA Region
      Country Desk Assistant                  PC/Headquarters/EMA Region
      Safety & Security Desk Officer          PC/Headquarters/EMA Region
      Programming & Training                  PC/Headquarters/OPATS
      Specialist/Health
      Associate Director                      PC/Headquarters/OGO
      Management Analyst                      PC/Headquarters/OGO
      Manager, Overseas Recruitment,          PC/Headquarters/M/HRM
      Selection and Support
      Director, Office of Medical Services    PC/Headquarters/VS
      Deputy Director, Office of Medical      PC/Headquarters/VS
      Services
      Chief of Clinical Programs              PC/Headquarters/VS
      Safety & Security Officer/Thailand      PC/Headquarters/SS
      Ambassador                              U.S. Embassy in Cambodia
      Regional Security Officer               U.S. Embassy in Cambodia
      Secretary of State                      Ministry of Education, Youth and Sport
    Data as of September 2010.




Final Program Evaluation Report: Peace Corps/Cambodia                                  29
                         LIST OF RECOMMENDATIONS
WE RECOMMEND:

   1. That the director of programming and training ensure that programming
      staff comply with post’s Site Identification Procedural Guidance.

   2. That the director of programming and training revise the English Teacher
      and Teacher Training Volunteer Assignment Description to more fully
      describe the challenges of working in the Cambodian school system and to
      emphasize the importance of secondary activities.

   3. That the training manager review pre- and in-service training programs to
      ensure that they adequately address and prepare Volunteers to carry-out
      secondary activities.

   4. That the director of programming and training revise the English Teacher
      and Youth Development Advisor Volunteer Assignment Description to
      establish more accurate expectations.

   5. That the director of programming and training review the Small Project
      Assistance (SPA) process and re-design SPA training so that Volunteers
      know how to apply for funding and manage the program.

   6. That the country director, in consultation with the Peace Corps safety and
      security officer, develop a professional development plan for the safety
      and security coordinator and monitor progress towards those skill
      development goals.

   7. That the director of programming and training establish guidelines to
      ensure that programming staff communicate regularly with Volunteers.

   8. That the director of programming and training ensure that Volunteers
      receive timely feedback to Volunteer Reporting Forms.

   9. That the country director and director of programming and training work
      with Volunteer Advisory Council (VAC) representatives to improve the
      effectiveness of the VAC as a tool for communication between Volunteers
      and staff.

   10. That the safety and security coordinator develop guidance for staff and
       Volunteers to ensure Site Locator Forms are complete and accurate and
       that maps are verified for accuracy after Volunteers submit them.




Final Program Evaluation Report: Peace Corps/Cambodia                              30
   11. That the country director: (1) address the 2009 Peace Corps safety and
       security officer recommendation to update the Volunteer site and housing
       criteria; (2) train staff to use the criteria; and (3) systematically inspect
       housing to ensure it meets the criteria.

   12. That the training manager continue and expand the practice of including
       Volunteers who can share their experience-based perspectives during pre-
       service training programs.

   13. That the safety and security coordinator collaborates with training and
       programming staff to plan and conduct safety and security training
       sessions.

   14. That the safety and security coordinator receive additional training in the
       areas of training development and training delivery.

   15. That the training manager enhance diversity training and deliver training
       shortly after trainees arrive in Cambodia.

   16. That the director of programming and training update Volunteer
       Assignment Descriptions to establish expectations regarding diversity
       challenges.

   17. That the country director address Peace Corps safety and security officer
       recommendations by implementing staff Emergency Action Planning
       training.

   18. That the country director establish regular staff meetings.

   19. That the country director implement the staff development activities
       outlined in the FY 2011-2013 Integrated Planning and Budget System.




Final Program Evaluation Report: Peace Corps/Cambodia                                  31
APPENDIX A


                       MANAGEMENT’S RESPONSE TO
                          THE PRELIMINARY REPORT




Memorandum
To:           Kathy Buller, Inspector General


Through:      Daljit K. Bains, Chief Compliance Officer

From:          Helen Lowman, EMA Regional Director
              Jon Darrah, Country Director

Date:         March 31, 2011

CC:           Carrie Hessler-Radelet, Deputy Director
              Stacy Rhodes, Chief of Staff
              Joaquin Ferrao, Deputy Inspector General
              Jim O’Keefe, Assistant IG, Evaluations
              Esther Benjamin, Associate Director, Global Operations
              Ed Hobson, Associate Director, Safety and Security
              David Burgess, Chief of Operations, EMA
              Steve Miller, Director, Overseas Programming and Training Support
              Sarah Morgenthau, Director, Peace Corps Response
              Maura Fulton, Chief of Programming & Training, EMA
              Ryan Schreiber, Country Desk Officer


Subject:      Response to the Preliminary Report of Peace Corps/Cambodia, February 2011


Enclosed please find the Europe Mediterranean and Asia (EMA) Region’s response to the
recommendations made by the Inspector General for Peace Corps/Cambodia, as outlined in the
Preliminary Report of the Program Evaluation Report of the IG Audit sent to the Agency on
February 17, 2011.




Final Program Evaluation Report: Peace Corps/Cambodia                                        32
APPENDIX A

The EMA Region concurs with all 19 recommendations provided by the OIG in its Preliminary
Program Evaluation Report: Peace Corps/Cambodia. Post has addressed and provided supporting
documentation for 5of the 19 recommendations and will work to address the remaining
recommendations by the set target dates.

The Region will continue to work with Post and the departments identified in the Preliminary
Report to ensure closure of these recommendations by the dates included within for outstanding
recommendations.


   1. That the director of programming and training ensure that programming staff
      comply with post’s Site Identification Procedural Guidance.

   Concur: DPT and P and T staff reviewed the current documents and held subsequent meetings
   to revise and combine documents used in the Site ID process. The outcome of these meetings
   will be the creation of a Post site ID and Site Visitation Manual by June 2011. All staff will be
   trained in this procedural manual by July 2011.

   Documents to be submitted:
        Revised Site ID Forms
        Flow Chart of Site ID Process

   Status and timeline for completion: July 2011

   2. That the director of programming and training revise the English Teacher and
      Teacher Training (ETTT) Volunteer Assignment Description to more fully describe
      the challenges of working in the Cambodian school system and to emphasize the
      importance of secondary activities.

   Concur: The Volunteer Assignment Description (VAD) will be revised to place more emphasis
   on involvement in secondary projects.

   Documents to be submitted:
        Revised VAD

   Status and timeline for completion: June 2011

   3. That the training manager review pre- and in-service training programs to ensure
      that they adequately address and prepare Volunteers to carry-out secondary
      activities.

   Concur: IST November 2010 and February 2011 featured sessions on secondary activities. Most
   of these sessions were PCV led so that challenges and timing can be discussed from a field
   perspective. Volunteers were taught how to conduct assessments so that they can identify
   projects. All future trainings will feature sessions on secondary project implementation.

   Documents to be submitted:


Final Program Evaluation Report: Peace Corps/Cambodia                                             33
APPENDIX A


          IST Session Plans

   Status and timeline for completion: April 2011

   4. That the director of programming and training revise the English Teacher and
      Youth Development Advisor Volunteer Assignment Description to establish more
      accurate expectations.

   Concur: Peace Corps Cambodia will not request Volunteers in the Youth Development
   assignment area beginning with the next input of Volunteers in quarter 4 of fiscal year 2012.
   Post will focus in on appropriate assignment areas that reflect the current project sectors in
   country.

   Documents to be submitted:
        Quarterly Request Summary for Quarter 4 FY12

   Status and timeline for completion: May 2011

   5. That the director of programming and training review the Small Project Assistance
      (SPA) process and re-design SPA training so that Volunteers know how to apply for
      funding and manage the program.

   Concur: Post has now implemented a Project Review Committee (PRC) which consists of
   USAID members, Program Managers and two volunteers who were selected through an
   application process. The new PRC was introduced at the February-March IST’s and will meet
   for an orientation on March 14th. The PRC will meet three times a year or more if there are
   many grant submissions in a given month. The PRC was also announced to the VAC and in an
   upcoming newsletter.

   Documents submitted:
        PRC Agenda and Minutes
        Grant Review Process Document

   Status and timeline for completion: March 2011

   6. That the country director, in consultation with the Peace Corps safety and security
      officer, develop a professional development plan for the safety and security
      coordinator and monitor progress towards those skill development goals.

   Concur: The current SSC has agreed to move to another position at post. Post will recruit
   another SCC in the next few months who is expected to be on staff by May 2011. . In the
   interim, the current SSC will continue to perform the existing duties of the SSC until the
   position is filed

   Documents to be submitted: N/A

   Status and timeline for completion: May 2011


Final Program Evaluation Report: Peace Corps/Cambodia                                               34
APPENDIX A



   7. That the director of programming and training establish guidelines to ensure that
      programming staff communicate regularly with Volunteers.

   Concur: The DPT has established guidelines for regular communication which include monthly
   phone calls to the Volunteer, feedback on the VRT, and responsiveness to Volunteer emails and
   requests.

   Documents to be submitted:
        Guidelines for communication with Volunteers

   Status and timeline for completion: May 2011

   8. That the director of programming and training ensure that Volunteers receive timely
      feedback to Volunteer Reporting Forms.

   Concur: The DPT has instructed the Programming and Training unit to provide VRF feedback
   within two weeks of receiving the VRF. The staff will use the special section of the VRF to
   provide this feedback. The DPT will review staff feedback after each VRT submission cycle
   (twice per year).

   Documents to be submitted:
        Sample feedback to volunteers using VRF
        Sample review of staff feedback by DPT after each VRT submission cycle


   Status and timeline for completion: December 2011

   9. That the country director and director of programming and training work with
      Volunteer Advisory Council (VAC) representatives to improve the effectiveness of the
      VAC as a tool for communication between Volunteers and staff.

   Concur: The VAC has met twice since the DPT arrived in July, 2010. New VAC members were
   selected from Warden Areas and the by-laws were reviewed. One of the VAC meetings was
   attended by the Best Practices team. The agenda for the VAC is solicited two weeks before the
   meeting and the minutes are submitted to the CD for approval and then disseminated to the
   PCVs and placed on SharePoint. A VAC member will now be responsible for creating the
   agenda and submitting to staff two weeks before the meeting.

   Documents submitted:
        VAC Meeting Notes October 2010, November 2010,March 2011
        VAC Bylaws

   Status and timeline for completion: March 2011




Final Program Evaluation Report: Peace Corps/Cambodia                                         35
APPENDIX A

   10. That the safety and security coordinator develop guidance for staff and Volunteers to
       ensure Site Locator Forms are complete and accurate and that maps are verified for
       accuracy after Volunteers submit them.

   Concur: The SSC conducts a session at PST on how to create an accurate map on the Site
   Locator form. The SSC will have a session for the General Service Clerk and Drivers (GSCDs)
   after PST to insist on verification of site map and GPS coordinates. The GSCDs will be asked to
   sign the site locator map as it is verified. If the map is not accurate, the PCV will be asked to
   redraw the map and give to the GSCD at the visit. The SSC has also changed the site locator
   form to include the name of the village, commune and district. The form will also be translated
   into Khmer.

   Documents to be submitted:
        Revised Site Locator Form with signature of verification from GSCD

   Status and timeline for completion: September 2011

   11. That the country director: (1) address the 2009 Peace Corps safety and security
       officer recommendation to update the Volunteer site and housing criteria; (2) train
       staff to use the criteria; and (3) systematically inspect housing to ensure it meets the
       criteria.

   Concur: Post has reviewed the site selection criteria and forms related to this process. Forms
   were combined and simplified to obtain the necessary information. The forms now collect more
   specific information related to safety and security. SSC and DPT will work collaboratively to
   create a Site ID and site visitation manual by September 2011. Training on this revised process
   will occur by September 2011

   Documents to be submitted:
        Revised Manual

   Status and timeline for completion: September 2011

   12. That the training manager continue and expand the practice of including Volunteers
       who can share their experience-based perspectives during pre-service training
       programs.

   Concur: Pre service training will commence during the month of July and August when staff
   will invite PCVs to become part of the process. Part of the Mid Service Training sessions will be
   obtaining input from the current Volunteers regarding future PSTs.

   Documents to be submitted:
        PST Calendar of Training Events

   Status and timeline for completion: September 2011




Final Program Evaluation Report: Peace Corps/Cambodia                                             36
APPENDIX A

   13. That the safety and security coordinator collaborates with training and programming
       staff to plan and conduct safety and security training sessions.

Concur: SSC has become a regular member of the P and T staff meetings. SSC will continue to
communicate the topics for safety and security sessions during each training and the P and T team
will schedule these sessions.
Additionally, headquarters will be providing a three-day, sub-regional training of trainers focusing
on how to deliver Safety and Security related material during PST and IST. The attendance of
Director of Programming and Training (or equivalent), their Training Manager (or equivalent)
and their Safety and Security Coordinator will be required. In addition to implementing the PST
sessions related to sexual assault prevention and response, this training of trainers will develop a
standardized safety and security training program for each post.


   Documents submitted:
        Sample of P and T Staff Meeting Agendas and Minutes depicting SSC participation and
        collaboration with programming and training staff.

   Status and timeline for completion: March 2011

   14. That the safety and security coordinator receive additional training in the areas of
       training development and training delivery.

   Concur: The current SSC has agreed to move to another position at post. Post will recruit
   another SCC beginning March 2011.

   Documents to be submitted: N/A

   Status and timeline for completion: May 2011

   15. That the training manager enhance diversity training and deliver training shortly
       after trainees arrive in Cambodia.

   Concur: The Training Manager will enhance diversity training through exploration of other
   post materials and volunteer input. A diversity session will be presented within the first 2 weeks
   of PST

   Documents to be submitted:
        Diversity sessions from other posts
        Diversity Session Plan for PST

   Status and timeline for completion: August 2011

   16. That the director of programming and training update Volunteer Assignment
       Descriptions to establish expectations regarding diversity challenges.




Final Program Evaluation Report: Peace Corps/Cambodia                                              37
APPENDIX A

   Concur: The DPT will update the VAD to include accurate expectations regarding diversity
   challenges.

   Documents to be submitted:
        Revised VAD

   Status and timeline for completion: July 2011

   17. That the country director address Peace Corps safety and security officer
       recommendations by implementing staff Emergency Action Planning training.

   Concur: All staff EAP training was completed during the first two years, but only part of the
   staff was trained during the third year. SSC will provide annual staff training for the entire staff
   by March 28, 2011, and again 6th months later. Several new staff members will be asked to
   participate in the EAP communications test. EAP training will continue to be included in the
   Training of Trainers for the upcoming PST.

   Documents to be submitted:
        Staff Training Agenda and Module.
        Participant sign in sheet

   Status and timeline for completion: March 2011

   18. That the country director establish regular staff meetings.

   Concur: The CD has established regular staff meetings through the Program and Training Unit
   which meets twice a month to discuss Post information and P and T issues. These meetings are
   attended by the SSC and the IT specialist. Administrative, Medical Unit and Executive staff will
   attend on an as needed basis. In addition, staff meetings are held for trainings and special events.
   Once a month, there has been an administrative all staff meeting. Senior staff meets informally
   on a regular basis.

   Documents submitted:
        Sample Staff Meeting Minutes and Agendas

   Status and timeline for completion: March 2011

   19. That the country director implement the staff development activities outlined in the
       FY 2011-2013 Integrated Planning and Budget System.

   Concur: The country director will continue to implement staff development activities as
   outlined in the 2011 - 13 IPBS.
   Documents to be submitted:
           Table of Implemented staff development activities

   Status and timeline for completion: December 2011



Final Program Evaluation Report: Peace Corps/Cambodia                                                 38
APPENDIX B



                                  OIG COMMENTS
Management concurred with all 19 recommendations. Based on the documentation provided, we
closed 5 recommendations: numbers 5, 9, 13, 17, and 18. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. We wish to note that in closing recommendations, we are not certifying that
the region or post has taken these actions or that we have reviewed their effect. Certifying
compliance and verifying effectiveness are management’s responsibilities. However, when we
feel it is warranted, we may conduct a follow-up review to confirm that action has been taken
and to evaluate the impact.
Fourteen recommendations, numbers 1, 2, 3, 4, 6, 7, 8, 10, 11, 12, 14, 15, 16, and 19, remain
open pending confirmation from the chief compliance officer that the documentation reflected in
OIG Analysis is received.

1. That the director of programming and training ensure that programming staff comply
with post’s Site Identification Procedural Guidance.

   Concur: DPT and P and T staff reviewed the current documents and held subsequent
   meetings to revise and combine documents used in the Site ID process. The outcome of these
   meetings will be the creation of a Post site ID and Site Visitation Manual by June 2011. All
   staff will be trained in this procedural manual by July 2011.

   Documents to be submitted:
        Revised Site ID Forms
        Flow Chart of Site ID Process

   Status and timeline for completion: July 2011

   OIG Analysis: Please submit a copy of the revised site ID and site visitation manual.

2. That the director of programming and training revise the English Teacher and Teacher
Training (ETTT) Volunteer Assignment Description to more fully describe the challenges
of working in the Cambodian school system and to emphasize the importance of secondary
activities.

   Concur: The Volunteer Assignment Description (VAD) will be revised to place more
   emphasis on involvement in secondary projects.

   Documents to be submitted:
        Revised VAD

   Status and timeline for completion: June 2011

   OIG Analysis: Please submit a copy of the revised ETTT VAD.


Final Program Evaluation Report: Peace Corps/Cambodia                                        39
APPENDIX B



3. That the training manager review pre- and in-service training programs to ensure that
they adequately address and prepare Volunteers to carry-out secondary activities.

   Concur: IST November 2010 and February 2011 featured sessions on secondary activities.
   Most of these sessions were PCV led so that challenges and timing can be discussed from a
   field perspective. Volunteers were taught how to conduct assessments so that they can
   identify projects. All future trainings will feature sessions on secondary project
   implementation.

   Documents to be submitted:
        IST Session Plans

   Status and timeline for completion: April 2011

   OIG Analysis: Please submit a copy of IST session plans.

4. That the director of programming and training revise the English Teacher and Youth
Development Advisor Volunteer Assignment Description to establish more accurate
expectations.

   Concur: Peace Corps Cambodia will not request Volunteers in the Youth Development
   assignment area beginning with the next input of Volunteers in quarter 4 of fiscal year 2012.
   Post will focus in on appropriate assignment areas that reflect the current project sectors in
   country.

   Documents to be submitted:
        Quarterly Request Summary for Quarter 4 FY12

   Status and timeline for completion: May 2011

   OIG Analysis: Please submit a copy of the Quarterly Training Request Summary for Quarter
   4 FY12.

6. That the country director, in consultation with the Peace Corps safety and security
officer, develop a professional development plan for the safety and security coordinator
and monitor progress towards those skill development goals.

   Concur: The current SSC has agreed to move to another position at post. Post will recruit
   another SCC in the next few months who is expected to be on staff by May 2011. . In the
   interim, the current SSC will continue to perform the existing duties of the SSC until the
   position is filed

   Documents to be submitted: N/A

   Status and timeline for completion: May 2011


Final Program Evaluation Report: Peace Corps/Cambodia                                           40
APPENDIX B



    OIG Analysis: Please submit an updated staffing chart.

7. That the director of programming and training establish guidelines to ensure that
programming staff communicate regularly with Volunteers.

    Concur: The DPT has established guidelines for regular communication which include
    monthly phone calls to the Volunteer, feedback on the VRT, and responsiveness to Volunteer
    emails and requests.

    Documents to be submitted:
         Guidelines for communication with Volunteers

    Status and timeline for completion: May 2011

    OIG Analysis: Please submit a copy of the guidelines for communication with Volunteers.

8. That the director of programming and training ensure that Volunteers receive timely
feedback to Volunteer Reporting Forms.

    Concur: The DPT has instructed the Programming and Training unit to provide VRF
    feedback within two weeks of receiving the VRF. The staff will use the special section of the
    VRF to provide this feedback. The DPT will review staff feedback after each VRT
    submission cycle (twice per year).

    Documents to be submitted:
         Sample feedback to volunteers using VRF
         Sample review of staff feedback by DPT after each VRT submission cycle

    Status and timeline for completion: December 2011

    OIG Analysis: Please submit a sample of feedback to Volunteers using the VRF and a
    sample review of staff feedback by the DPT.

10. That the safety and security coordinator develop guidance for staff and Volunteers to
ensure Site Locator Forms are complete and accurate and that maps are verified for
accuracy after Volunteers submit them.

    Concur: The SSC conducts a session at PST on how to create an accurate map on the Site
    Locator form. The SSC will have a session for the General Service Clerk and Drivers
    (GSCDs) after PST to insist on verification of site map and GPS coordinates. The GSCDs
    will be asked to sign the site locator map as it is verified. If the map is not accurate, the PCV
    will be asked to redraw the map and give to the GSCD at the visit. The SSC has also
    changed the site locator form to include the name of the village, commune and district. The
    form will also be translated into Khmer.




Final Program Evaluation Report: Peace Corps/Cambodia                                              41
APPENDIX B


    Documents to be submitted:
         Revised Site Locator Form with signature of verification from GSCD

    Status and timeline for completion: September 2011

    OIG Analysis: Please submit a copy of the revised Site Locator Form with signature of
    verification from GSCD.

11. That the country director: (1) address the 2009 Peace Corps safety and security officer
recommendation to update the Volunteer site and housing criteria; (2) train staff to use the
criteria; and (3) systematically inspect housing to ensure it meets the criteria.

    Concur: Post has reviewed the site selection criteria and forms related to this process. Forms
    were combined and simplified to obtain the necessary information. The forms now collect
    more specific information related to safety and security. SSC and DPT will work
    collaboratively to create a Site ID and site visitation manual by September 2011. Training on
    this revised process will occur by September 2011

    Documents to be submitted:
         Revised Manual

    Status and timeline for completion: September 2011

    OIG Analysis: Please submit a copy of the revised site ID and site visitation manual.

12. That the training manager continue and expand the practice of including Volunteers
who can share their experience-based perspectives during pre-service training programs.

    Concur: Pre service training will commence during the month of July and August when staff
    will invite PCVs to become part of the process. Part of the Mid Service Training sessions
    will be obtaining input from the current Volunteers regarding future PSTs.

    Documents to be submitted:
         PST Calendar of Training Events

    Status and timeline for completion: September 2011

    OIG Analysis: Please submit PST Calendar of Training Events.

14. That the safety and security coordinator receive additional training in the areas of
training development and training delivery.

    Concur: The current SSC has agreed to move to another position at post. Post will recruit
    another SCC beginning March 2011.

    Documents to be submitted: N/A


Final Program Evaluation Report: Peace Corps/Cambodia                                           42
APPENDIX B



   Status and timeline for completion: May 2011

   OIG Analysis: Please submit an updated staffing chart.

15. That the training manager enhance diversity training and deliver training shortly after
trainees arrive in Cambodia.

   Concur: The Training Manager will enhance diversity training through exploration of other
   post materials and volunteer input. A diversity session will be presented within the first 2
   weeks of PST

   Documents to be submitted:
        Diversity sessions from other posts
        Diversity Session Plan for PST

   Status and timeline for completion: August 2011

   OIG Analysis: Please submit a diversity session plan for PST.

16. That the director of programming and training update Volunteer Assignment
Descriptions to establish expectations regarding diversity challenges.

   Concur: The DPT will update the VAD to include accurate expectations regarding diversity
   challenges.

   Documents to be submitted:
        Revised VAD

   Status and timeline for completion: July 2011

   OIG Analysis: Please submit a copy of the revised VAD.

19. That the country director implement the staff development activities outlined in the FY
2011-2013 Integrated Planning and Budget System.

   Concur: The country director will continue to implement staff development activities as
   outlined in the 2011 - 13 IPBS.

   Documents to be submitted:
        Table of Implemented staff development activities

   Status and timeline for completion: December 2011

   OIG Analysis: Please submit a table of implemented staff development activities



Final Program Evaluation Report: Peace Corps/Cambodia                                        43
APPENDIX C




   PROGRAM EVALUATION COMPLETION AND OIG CONTACT
   PROGRAM EVALUATION            This program evaluation was conducted under the
   COMPLETION                    direction of Jim O’Keefe, Assistant Inspector General for
                                 Evaluations, and by Senior Evaluator Reuben Marshall.
                                 Additional contributions were made by Heather Robinson
                                 and Lisa Chesnel.




                                 Jim O’Keefe
                                 Assistant Inspector General for Evaluations




   OIG CONTACT                   Following issuance of the final report, a stakeholder
                                 satisfaction survey will be distributed. If you wish to
                                 comment on the quality or usefulness of this report to help
                                 us improve our products, please e-mail Jim O’Keefe,
                                 Assistant Inspector General for Evaluations and
                                 Inspections, at jokeefe@peacecorps.gov, or call (202)
                                 692-2904.




Final Program Evaluation Report: Peace Corps/Cambodia                                          44
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps

 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                        Call:
                         Main Office: 202.692.2900
                         24-hour Hotline: 202.692.2915
                         24-hour Toll-Free Hotline in the U.S.: 800.233.5874

                                       Write:
                         Peace Corps
                         Attn: Inspector General
                         1111 20th St., NW
                         Washington, DC 20526
                         Peace Corps
                         Attn: Inspector General
                         P.O. Box 57129
                         Washington, DC 20037-7129

                                       Email:
                         OIG@peacecorps.gov

                                      Website:
                         www.peacecorps.gov/OIG
                         Web form: www.peacecorps.gov/ContactOIG




All information and complaints will be treated confidentially unless OIG determines,
        during the course of the investigation, that disclosure is unavoidable.
